i

i
I

I

3fn tJje Supreme Court of tfje fHntteb States!
KRAIG RUDINGER KAST ET AL.,
Petitioners,
v.

ERICKSON PRODUCTIONS INC.,
& JIM ERICKSON,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI

Kraig R. Kast
Petitioner Pro Se
P.O.BOX 4612
Foster City, CA 94404
(415) 806-9292
KRAIGU@HOTMAIL.COM

September 5,2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

filed
SEP 0 5 2019

1

QUESTIONS PRESENTED
1. Whether the district and appellate courts
claiming jurisdiction under ERISA over a private inter
vivos trust creates conflict between Article VI of the
Constitution and the Tenth Amendment and State
probate codes. Whether the district and appellate
courts have jurisdiction over a person if the person
lacks capacity to be sued under FRCP 17(b). Whether
the district court claiming jurisdiction based on comity
deprives the parties of due process before a court of
competent jurisdiction. Whether the Ninth Circuit
decision conflicts with IRS codes and jurisdiction.
2. Whether under the Fifth Amendment’s property
due process clause, a district and appellate court
must provide the beneficiary of a valid irrevocable
inter vivos trust, testamentary trust or will with due
process before taking the beneficiary's property.
3. Whether the Tenth Amendment confers to the
States the ability to establish their own probate laws
to determine what makes a Trust Valid. Whether
behavior of a licensee passes through personal liability
to the trustee of an irrevocable inter vivos trust.
4. Whether the Tenth Amendment confers to the
States the exclusive right, because there is no federal
licensing of attorneys, accountants, doctors, fiduciaries
and others who provide services to trustees, to legis­
late and enforce their own laws regarding the qualifica­
tions and behavior of persons who are licensed by the
State. Whether State probate law allows licensees to
perform the tasks of a trustee of a inter vivos or testa­
mentary trust, without the licensees personal liability
passing to the trust, trustee or beneficiary, provided

11

the licensee is not named as the trustee in the trust
instrument.
5. Whether the Tenth Amendment gives a State
the exclusive right to legislate and enforce its own
governmental laws regarding what types of documents
can be recorded by a County Recorder and whether the
State has the constitutional right to consider those
recorded documents to lack legal sufficiency or
correctness when used as evidence in a legal proceeding.
6. Whether the Tenth Amendment prohibits a
district court from invalidating the settlor’s transfer
of property into a private trust, when that transfer is
valid under a State’s probate law.
7. Whether under the Ninth Circuit’s In re
Levander decision conflicts with FRCP 60(b) amended
1946, FRCP59(e) and FRCP 6(b) for establishing the
Statute of Limitations.

Ill

LIST OF PROCEDINGS BELOW
1. Southern District of New York case no. l:12-civ1693. Erickson Productions Inc. & Jim Erickson v
Atherton Trust. March 12, 2012. Dismissed for
personal jurisdiction.
2. California Central District case no. 2:13-cv-07160.
Erickson Productions Inc. & Jim Erickson v Kraig
Rudinger East. Filed September 27, 2013, trans­
ferred November 22, 2013 to CAND.
3. California Northern District, San Jose case no.
5:13-cv-05472. Erickson Productions Inc. & Jim
Erickson v. Kraig Rudinger Kast. Trial with Judg­
ment. April 15, 2015. Judgment Entered August
18, 2015.
4. Court of Appeals for the Ninth Circuit case no. 1516801. Erickson Productions Inc. & Jim Erickson
v. Kraig Rudinger Kast Appeal. September 10,
2015.
5. Court of Appeals for the Ninth Circuit Case No. 1717157. Erickson Productions Inc. v. Kraig Rudinger
Kast et al. Appeal of 5:13-cv-05472 Motion to
Amend. October 17, 2017.
6. California Northern District, San Jose case no.
5:13-cv-05472. Order Denying Motion to Assign.
November 9, 2018 .
7. Court of Appeals for the Ninth Circuit, case no.
15-16801. Erickson Productions Inc. & Jim Erick­
son v. Kraig Rudinger Kast vacate and remand to
USDC-CAND Oakland case no. 4:13-cv-05472. April
16, 2019.

IV

8. Court of Appeals for the Ninth Circuit. Case no.
17-17157. Erickson Productions Inc. & Jim Erick­
son v. Kraig Rudinger Kast. District court order
regarding motion to amend affirmed. May 1, 2019.
9. Court of Appeals for the Ninth Circuit case no. 1717157. Erickson Productions Inc. & Jim Erickson
v. Kraig Rudinger Kast. Kast En Banc petition.
May 15, 2019.
10. Court of Appeals for the Ninth Circuit. Case no. 1717157 Erickson Productions Inc. & Jim Erickson
v. Kraig Rudinger Kast. Kast En Banc denial.
June 7, 2019.

LIST OF PARTIES, RULE 29.6 STATEMENT
The parties to the proceeding in the United States
Court of Appeals for the Ninth Circuit are the same
as the parties to this proceeding in the Supreme
Court of the United States: Kraig R. Kast Petitioner,
Defendant (Kast) and settlor of the California
Irrevocable Inter Vivos Trust named the Black Oak
Trust dated 3-11-95, interested party Mariellen Baker
(Baker) trustee and beneficiary of the irrevocable Black
Oak Trust dated 3-11-95 and Plaintiff & Respondent
Jim Erickson & Erickson Productions Inc. (Erickson).
The inter vivos trust at issue is a private trust and is
not owned by a corporation or other business entity.

V

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..............................

i

LIST OF PROCEDINGS BELOW....................

m

TABLE OF AUTHORITIES...............................

x

PETITION FOR A WRIT OF CERTIORARI....

1

OPINIONS BELOW...........................................

1

JURISDICTION.................................................

2

CONSTITUTIONAL AND

STATUTORY PROVISIONS.................
STATEMENT OF THE CASE.....................

2

A. Introduction.............................................

3

B. Statement of the Facts ............................

5

C. Procedural History..................................

8

1. Trial Court Proceedings....................

8

2. Appellate Court Proceedings............

9

3

REASONS FOR GRANTING THE PETITION...... 12
I.

The District and Appellate Court’s
Erred in the Opinions Below.................... 12
A. The Ninth Circuit and District Court’s
Jurisdiction Claim Conflicts With the
Constitution’s Article VI Clause 2, the
Tenth Amendment and State Probate
Laws.......................................................... 12
B. The District Court Erred When It
Asserted Jurisdiction Over the Bene­
ficiary ........................................................ 13

VI

TABLE OF CONTENTS — Continued
Page
C. The District Court Abused Its Discretion
When It Used Comity to Claim
Jurisdiction.................................................. 14
D. The Ninth Circuit’s Decision Conflicts
With the Internal Revenue Service’s
Tax Treatment of Trusts........................... 15
E. The District Court Erred When it
Claimed Jurisdiction During the
Appeal........................................................... 15
II. This Issue Is of legal and National
Significance
The Ninth Circuit’s
Decision Deprived the Beneficiary of
her Fifth Amendment Property Due
Process............................................................... 16
III. This Issue Is of Legal and National
Significance — The Tenth Amendment
Confers to the State’s the Ability to
Establish Probate Laws to Determine
What Makes a Trust Valid............................ 18
A. The Ninth Circuit’s De Novo Review
Fails............................................................... 18
B. This Issue Is of legal and National
Significance — The Tenth Amendment
Enables California’s Probate Code to
Determine a Trust’s Validity.................... 19
C. This Issue Is of Legal and National
Significance — A Licensee’s Behavior
Does Not Create Pass Through Liability

Vll

TABLE OF CONTENTS - Continued
Page
to a Trust, the Trustee or the Trust’s
Beneficiary.................................................... 20
D. The Ninth Circuit and District Court’s
Erred — Their Decision Creates Confu’ sion and Conflict......................................... 22
E. This Issue Is of legal and National
Significance — The Tenth Amendment
Enables the Trust’s Spendthrift and
Special Powers of Appointment Clauses
to Prevent Taking Baker’s Property....... 24
IV. This Issue Is of legal and National
Significance — The Tenth Amendment
Confers to the States the Ability to
Create And Enforce Their Own Licen­
sing Laws........................................................... 26
V. This Issue Is of Legal and National
Significance — The Tenth Amendment
Confers to the States the Ability
Create Their Own Governmental Laws ....29
A. Recorded Documents Lack Legal
Sufficiency.................................................... 29
B. The Ninth Circuit and the District Court
Erred
The Legally Required
Description of the Trust on Recorded
Loan Documents Is Not a Fictitious
Name That Proves Alter Ego................... 30

Vlll

TABLE OF CONTENTS — Continued
Page
VI. This Issue Is of Legal and National
Significance — The Tenth Amendment
and California Probate Law Validate
the
Property
Was
Correctly
Transferred into the Trust....................... 32
VII. The District and Appellate Courts
Erred — The Ninth Circuit and District
Court’s Decision In re Levander
Conflicts with FRCP 60(b) Amended
1946 AND FRCP 6(b)....................................... 32
CONCLUSION......................................................... 34
APPENDIX TABLE OF CONTENTS
Memorandum Opinion of the Ninth Circuit
(May 1, 2019).................................................

la

Order Denying Plaintiffs’ Motion to Assign
Rental Income or Force Sale, and Staying
Case Pending Appeals (November 9, 2018).

5a

Order Granting in Part Erickson’s Motion to
Amend the Judgment (October 5, 2017).....

13a

Order of the Ninth Circuit Denying Petition for
Rehearing En Banc (June 7, 2019).......... .

40a

California Probate Code
Statutes and Definitions...............................

41a

Internal Revenue Service Code 671-678...........

56a

IX

TABLE OF CONTENTS — Continued
Page
Appellant’s Informal Opening Brief
(April 23, 2018)........................................

58a

Appellant Informal Reply Brief
(June 6, 2018)...........................................

115a

Appellant Informal Petition for Rehearing
En Banc (May 15, 2019)..........................

145a

Black Oak Trust Document, Relevant Excerpt.... 167a
County of San Mateo Assessor-County
Clerk-Recorder Website Screenshot

170a

X

TABLE OF AUTHORITIES
Page
CASES
Ammco Ornamental Iron, Inc v. Wing,
(1994) 26 Cal.App.4th 409.............................

25

Bobala v. Bobala,
68 Ohio App. 63, 33 N.E.2d 845 (1940).....

15

Coe v. Armour Fertilizer Works,
237 U.S. 413 (1915)........................................

17

Franzen v. Zimmer,
35 N.Y.S. 612, 90 Hun, 103 (1895).............

15

Gaynor v. Bulen,
228 Cal. Rptr. 3d 243 (Cal. Ct. App. 2018)

28

Griggs v. Provident Consumer Discount Co.,
459 U.S. 56 (1982)...........................................

15

Hoffman v. Beer Drivers &
Salesmen’s Local Union No. 888,
536 F.2d 1268 (9th Cir. 1976)...................

12

In re Allustiarte,
786 F 2d 910 (9th Cir 1986)..........................

28

In re Levander,
180 F. 3d 114 (9th Cir. 1999)........................

33

In re Padilla,
222 F.3d 1184 (9th Cir. 2000)......................

16

King v Johnson,
178 Cal.App.4th 1488 (2009).......................

28

Kokkonen v. Guardian Life Ins. Co.,
511 U.S. 375, 114 S.Ct. 1673,
128 L.Ed.2d 391 (1994)..................................

12

XI

TABLE OF AUTHORITIES—Continued
Page
Laycock v. Hammer,
44 Cal. Rptr. 3d 921 (Ct. App. 2006)......... 21, 30
McClatchy Newspapers v. Central Valley
Typographical Union No. 46,
Int’l Typographical Union,
686 F.2d 731 (9th Cir. 1982)........................

16

Peacock v. Thomas,
516 U.S. 349 (1996)........................................

12

Solomon v. N Am. Life and Cas. Ins. Co.,
151 F3d 1132 (9th Cir. 1998)......................

28

Strawn Mercantile Co. v. First Nat. Bank,
279 S.W. 473 (Tex. Civ. App. 1926)...........

15

Thomas, Head, & Greisen Employees Trust v.
Buster, 95 F.3d 1449 (9th Cir. 1996).........

12

Walton v. Bank of California,
218 Cal.App.2d 527 (1963)...........................

21

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. II........................

6

U.S. Const, amend. V..

passim

U.S. Const, amend. X

passim

U.S. Const., Art VI

i, 3, 12, 13

Xll

TABLE OF AUTHORITIES—Continued
Page
STATUTES
28 U.S.C. § 1254(1).........

2

28 U.S.C. § 1291.............

2

CA Bus & Prof § 6500....

29

CA Bus & Prof § 6592....

29

CA Bus & Prof § 17900...

31, 32

CA Prob Code § 82(b)....

13, 19

CA Prob Code § 15200....

..6, 19

CA Prob Code § 15201....

19

CA Prob Code § 15202....

7, 19

CA Prob Code § 15205....

19

CA Prob Code § 15206....

6, 19

CAProb Code § 15208....

20

CA Prob Code § 15211....

6

CAProb Code § 15301....

25

CAProb Code § 15307....

25

CAProb Code § 15400....

18, 19, 20

CA Prob Code § 16002....

21

CA Prob Code § 16002(a)

7

CA Prob Code § 16009....

31, 32

CA Prob Code § 16222....

30, 31

CA Prob Code § 16247....

22, 26

Xlll

TABLE OF AUTHORITIES—Continued
Page
CA Prob Code § 18200....

....18, 19

CA Prob Code § 21102(a)

6, 18, 19

CA Prob Code § 26247....

9

UTC § 502........................

25

JUDICIAL RULES
Fed. R. Civ. P. 6(b)......

ii, 32, 33, 34

Fed. R. Civ. P. 12(b)(1)

13

Fed. R. Civ. P. 17(b)....

.......i, 10, 13

Fed. R. Civ. P. 59(e)....

......ii, 33, 34

Fed. R. Civ. P. 60(b)....

ii, 32, 33, 34

OTHER AUTHORITIES
J. Moore,
Federal Practice P 203.11 (2d ed. 1975)

12

1

PETITION FOR A WRIT OF CERTIORARI
Kraig R. Kast et al, Defendants, respectfully
petitions this court issue a writ of certiorari to
reverse and remand the decisions of the United States
Court of Appeals for the Ninth Circuit below.

OPINIONS BELOW
The decisions of the Court of Appeals for the
Ninth Circuit are available at Erickson Productions,
Inc. v. Kraig Kast, No. 17-17157 (9th Cir. 2019) Memo­
randum of Opinion of the Ninth Circuit (May 1, 2019)
(Docket 348) reprinted at App.la; Order Denying
Plaintiffs’ Motion to Assign Rental Income or Force
Sale, and Staying Case Pending Appeals (November 9,
2018) (Docket 341) reprinted at App.5a; Order Granting
in Part Erickson’s Motion to Amend the Judgment
(October 5, 2017) (Docket 243) reprinted at App.l3a;
Order of the Ninth Circuit Denying Petition for Rehear­
ing En Banc (July 7, 2019) (Docket 48) reprinted at
App.40a; Appellant’s Informal Opening Brief (April
23, 2018) (Docket 19) reprinted at App.41a; Appellant
Informal Reply Brief (June 6, 2018) (Docket 28)
reprinted at App.98a; Appellant Informal Petition for
Rehearing En Banc (May 15, 2019) (Docket 47) re­
printed at App.l28a; California Probate Code, Statutes
and Definitions reprinted at App.l50a.

2

JURISDICTION
The United States Court of Appeals for the Ninth
Circuit entered its opinion on May 1, 2019, and denied
Petitioner’s timely petition for rehearing and rehearing
En Banc on June 7, 2019. The Ninth Circuit had
original jurisdiction pursuant to 28 U.S.C. § 1291.
The Supreme Court has jurisdiction over this matter
pursuant to 28 U.S.C. § 1254(l).

CONSTITUTIONAL AND STATUTORY
PROVISIONS
•

U.S. Const., Art. VI
. . . the laws of the United States which shall be
made in pursuance thereof; and all treaties made,
or which shall be made, under the authority of the
United States, shall be the supreme law of the
land.

•

U.S. Const, amend. V
It also requires that “due process of law“ be part
of any proceeding that denies a citizen “life,
liberty or property

•

U.S. Const, amend. X
The powers not delegated to the United States
by the Constitution, nor prohibited by it to the
states, are reserved to the states respectively, or
to the people.

3

For the text of the below statutes please see the
appendices.
Federal Rules of Civil Procedure 6(b)(2), 12(b)(1), 12
(b)(6), 59(e), 60(b) amended 1946, 69(a)(2)
California Probate Codes 82(a)(1), 82(b)(l3), 83, 681,
810, 15200, 15201,15202, 15203, 15205, 15206,
15208, 15300, 15301,15400, 16002,16004, 16009(b),
16014,16102, 16012(b), 16222, 16225(1), 16225(2)(b),
16228, 16231,16241, 16243, 16247, 16352(a), 16352
(c)(4), 18200, 19001 (App.41a)
Uniform Trust Code Section 504(b)
California Revenue Code 480, 11911
California Business & Professions Code 6500,
17900(a)(1), 17900(b)(1)
Cabfornia Civil Code 2934, 1624(b)(1)(B), 1624(I)(D),
493.010(b)
Internal Revenue Service Code 671-678 (App.56a)
8/nV®

STATEMENT OF THE CASE
A.

Introduction

The Ninth Circuit’s decision created multiple
Constitutional conflicts. Their decision created conflict
between the Constitution’s Article VI and the Tenth
Amendment regarding jurisdiction. The Ninth Circuit
also created conflict with the Fifth Amendment citizens
right to property due process when it took the property
of the beneficiary, who was not a party to the litigation.

4

The Ninth Circuit created conflict with the Tenth
Amendment because there is no federal probate code.
The Ninth Circuit created conflict between the Tenth
Amendment and California’s probate, civil, business
& professions and governmental laws. The Ninth
Circuit’s decision eliminated over 100 years of irrevo­
cable trust law in all fifty states. The Ninth Circuit
also failed to consider the district court order (Docket
341) that superseded and overrode the magistrate’s
order (Docket 243) that prompted the appeal. The
superseding order was a dispositive decision that
should have ended the appeal. Kast addressed all of
the district court and Ninth Circuit’s decisions pointby-point in his opening, reply and En Banc briefs. To
summarize, no title company, lender, mortgage broker,
real estate broker or CPA would put their license or
money at risk if the irrevocable Black Oak Trust
instrument, financing process or tax filing was not
legal under California and Federal law. For the
foregoing reasons Kast has submitted this Writ of
Certiorari.
In appeal case no. 17-17157, Kast asked the Ninth
Circuit to use the following standards of review: De
Novo, Abuse of Judicial Discretion and Insufficient
Evidence. Kast has standing because he is the
defendant and appellant in the copyright case, the
appellant and defendant in the motion to amend and
the settlor of the private irrevocable inter vivos and
revocable inter vivos trusts.
The Ninth Circuit’s memorandum made five
affirmative decisions: The Black Oak Trust is revocable,
recorded documents support the trust is revocable,
Kast behaved like the trustee therefore he is the

5

trustee, the district court had jurisdiction and the
motion to amend was timely. Kast will prove that the
Ninth Circuit failed to properly apply the Fifth and
Tenth Amendments and California’s Probate, Business
& Professions, Civil and Governmental laws in this
case. If the court had correctly applied the law, the
only conclusion the Ninth Circuit could have made is
the inter vivos trust is irrevocable, the recorded docu­
ments lack legal sufficiency, California law does not
support that the behavior of a licensee hired by the
trustee imputes any legal liability to a trustee, the
district court and the Ninth Circuit didn’t have juris­
diction using the basis they claimed and the statute
of limitations negates the respondents motion to
amend. For the foregoing reasons Kast objected to
the Ninth Circuit’s memorandum.
B.

Statement of the Facts

Kraig Kast, as settlor/grantor/trustor, executed
the revocable inter vivos Kraig Kast Living Trust on
March 11, 1995 with a California situs. Kast funded
the revocable trust with three residential income
properties all located in San Mateo County, California
on the same day. Kast was never the beneficiary of
the revocable trust. In 2005 Kast started an invest­
ment advisory business, Atherton Trust Company,
with a goal of providing ethical services to disabled
senior citizens. The company grew rapidly. Kast and
Atherton were featured in the Wall Street Journal,
Inc. and other publications worldwide. To sustain
Atherton’s growth Kast borrowed $470,000 of his
fiance Baker’s retirement savings. Kast agreed to
repay Baker, with interest, from Atherton’s profits.
When the financial crisis of 2008-2009 began to

6

materialize in late 2007, Kast recommend that his
clients convert their investments in securities to cash
and certificates of deposit to safeguard their invest­
ments. This meant Atherton had no clients and no
income. Baker was concerned that the looming financial
crisis would jeopardize Atherton’s ability to repay her
retirement savings, so Baker asked Kast to assign
the three properties Kast held in his revocable trust
to her in an irrevocable trust to satisfy his and
Atherton’s debt to her because Atherton was effectively
insolvent.
•On December 11, 2007 Kast created the second
amendment and restatement to the revocable trust
which changed the name of the revocable Kraig Kast
Living Trust dated 3-11-95 to the revocable Black
Oak Trust. Kast intentionally did not fund the second
amendment. Later the same day, Kast executed the
third amendment to the revocable trust that amended
and restated the revocable trust to become an irrevo­
cable trust named the Black Oak Trust in compliance
with California probate Code (CPC) sections 1520015211, 21102(a). Kast the settlor named Baker as the
sole lifetime beneficiary of the irrevocable trust and
successor trustee. Kast has never been the beneficiary
of the revocable or irrevocable trust. Kast notarized
the irrevocable trust instrument, although notariza­
tion is not required under California law. Kast as the
settlor funded the irrevocable Black Oak Trust with
four California residential income properties listed
on the trust instrument’s Addendum/Schedule A on
December 30, 2007 in compliance with CPC 15206.
CPC15206 reads “that a trust in real property is not
valid “unless evidenced ... (a) by a written instrument
signed by the trustee or (b) by a written instrument

7

conveying the trust property signed by the settlor.”
Kast chose to use (b). The irrevocable Black Oak
Trust Section 1.04 (App. 165a-167a) references and
includes Addendum/Schedule A in the irrevocable
trust and lists the properties by address and is
signed and dated by Kast as the settlor as required
by law. Therefore, the properties were legally trans­
ferred and assigned to Baker in trust in compliance
with the California law 15202, 15206 and CCP
493.010(b) (assignment to creditors) respectfully. His
property assignment settled Kast’s debt to Baker (the
fourth property was acquired in trust using funds
from the refinance of one of the properties Kast
assigned to Baker in the irrevocable trust).
Because Kast is a California licensed Professional
Fiduciary (#558), Real Estate Broker (# 01426063)
and Insurance broker (# 0G91440), Baker the bene­
ficiary, hired Kast to be the trustee of the irrevocable
trust and to manage the properties in her best inter­
est as required by California Probate Code 16002(a)
which states “ The trustee has a duty to administer
the trust solely in the interest of the beneficiaries”,
forty-nine other states have similar language in their
probate codes. The irrevocable Black Oak Trust instru­
ment has been determined to be valid by the State of
California, County of San Mateo, California, First
American Title Insurance Company a national title
insurer, two national banks, several lenders, third
party service providers and the tenants who reside in
the trust owned properties.
The financial crisis was more severe than Kast
or Baker anticipated. Millions of people lost their
properties to foreclosure. Kast functioning as the

8

trustee, had a moral, ethical and fiduciary duty to save
Baker’s properties. The rental income was significantly
less than the debt payments. Financing real estate
was difficult, but Kast was able to refinance three
of the four properties over several years, while the
economy recovered. Kast anticipated that when loans
were more accessible that the properties, having
increased in value from the low of 2008-2009, would
be easier to finance. Kast’s efforts succeeded and
Baker was able to save her retirement savings.
C.

Procedural History
1. Trial Court Proceedings

Separately, Kast decided in December 2010 to
restart Atherton Trust Co. as the economy was recov­
ering from the great recession. He hired a professional
website development company named Only Websites in
Utah to build Atherton a new website. Unbeknownst
to Kast, Only Websites copied three small stock photos
to the Atherton development website to use as
temporary placeholders until the final photos and
text were inserted. Only Websites didn’t pay the photo­
grapher, Erickson, a license fee. Seven months later
in July 2011, Kast received a cease & desist from the
Erickson’s attorney. Kast immediately asked Only
Websites to delete the photos from the development
website, Only Websites deleted the photos within 24
hours. In March 2012 Erickson sued Kast and Only
Websites in SDNY for copyright infringement seeking
$450,000 damages each. Kast did nothing wrong, so
he fought Erickson’s malicious lawsuit. In March
2013 SDNY dismissed Kast and Atherton due to
personal jurisdiction. In December 2013 Erickson sued

9

Kast in CAND as an individual only and was assigned
case no. 5:13-cv-05472. Only Websites defaulted, in
March 2016 the SDNY found Only Websites to be the
direct infringer and fined them $11,250.
During East’s trial in April 2015 in CAND, Erick­
son’s attorney alleged Kast was the direct infringer,
the vicarious infringer and the contributory infringer.
Kast was poorly represented. The jury found Kast not
to be the direct infringer, but he was judged to be
both a willful vicarious infringer and a contributory
infringer, The jury awarded Erickson $450,000 plus
attorney fees of over $200,000 for photos that licensed
for $300.
2. Appellate Court Proceedings
Kast appealed pro se and was assigned case no.
15-16801. Baker, the beneficiary, who had nothing to
do with the copyright litigation asked Kast to resign
as trustee of the irrevocable trust due to the ongoing
litigation. Kast resigned at the end of the trust’s
accounting year on December 31, 2015. Baker is named
in the trust instrument as the successor trustee of
the irrevocable Black Oak Trust dated 3-11-95, so
she became the trustee on December 31, 2016 after
East’s resigned. Because of Kast’s experience and his
California Fiduciary, Real Estate broker and Insurance
broker licenses, Baker hired Kast to manage the trust
properties, to advise her about how to be the trustee
and to consult with experts such as mortgage brokers
and lenders on her behalf, as permitted by California
Probate Code 26247.
During the copyright appeal Erickson confirmed
that Kast had no money, no clients and that Atherton

10

was inactive due to his lawsuit. Realizing Kast had
no money, Erickson’s attorney filed a motion to amend
the copyright judgment on November 23, 2016 to
add Kast as trustee, the irrevocable Black Oak Trust
and Baker as its trustee and beneficiary as judgment
debtors. In December Baker hired an attorney to
preserve her retirement savings and incurred nearly
$300,000 in legal bills before she declined magistrate
jurisdiction which led to her being dismissed. In
October 2017, the district court magistrate issued his
order (Dkt 243 App.l3a) voiding Kast’s transfer of
the properties from his revocable trust to the irrevocable
trust ten years before. The magistrate’s order inten­
tionally exposed Baker’s retirement savings to
seizure by Erickson to pay Kast’s debt, for no other
reason than she is Kast’s fiance. On November 15,
2017 Kast appealed pro se and was assigned case no.
17-17157. See Kast Opening Brief App.41a and Reply
Brief Appendix 98a that succulently state the facts
and law that the Courts should have applied.
In May 2018 the Ninth Circuit ordered Kast be
appointed pro bono counsel (15-16801-Docket 54) to
argue technical legal issues that Kast raised in his
copyright appeal. While both the appeal of the copyright
case and motion to amend were pending, the article
three district court judge, who inherited the motion
to amend case after the magistrate retired, heard
arguments on Erickson new motion to assign or sell.
The district court concluded that the irrevocable
Black Oak Trust is valid, that Kast resigned as trustee
nearly a year before Erickson’s motion to amend was
filed and that Baker as trustee and beneficiary didn’t
have capacity to be sued under FRCP 17(b). The district
court judge noted that Erickson admitted in his briefs

11

that Baker is the trustee (not Kast) Add .5a. The district
court denied Erickson’s motion to seize Baker’s retire­
ment savings/properties and the income they produced.
(Docket 341 App.5a) Erickson didn’t appeal the denial.
The Ninth Circuit was advised of the district court
judge’s dispositive order issued November 9, 2018, via
a motion to augment and judicial notice on November
20, 2018 (Docket 338).
On April 16, 2019 the Ninth Circuit vacated the
vicarious and $450,000 willfulness copyright judgments
against Kast, but found him to be a contributory
infringer, without stating why he was a contributory
infringer. The Ninth Circuit remanded the question
of whether Kast was willful or not and his contributory
damages to the district court, where a different
magistrate judge is currently hearing arguments on
these issues. On May 1, 2019 the Ninth Circuit affirmed
the district court’s order (Docket 348) in case no. 1717157 App.la. Kast petitioned for En Banc rehearing
App.l28a, which was denied on June 7, 2019 App.40a.
The Ninth Circuit denial is the basis for this writ of
certiorari. Kast has been briefing the remand pro se,
while also preparing this petition pro se.

12

REASONS FOR GRANTING THE PETITION
I.

The District and Appellate Court’s Erred
the Opinions Below.

in

A. The Ninth Circuit and District Court’s Juris­
diction Claim Conflicts With the Constitution’s
Article VI Clause 2, the Tenth Amendment
and State Probate Laws.
In its memorandum the Ninth Circuit claimed
jurisdiction in one sentence “The district court’s addi­
tion of judgment debtors was supported by proper
jurisdiction and complied with California trust law”.
This reasoning is incorrect. To establish ancillary
subject matter jurisdiction, the district court cited
three cases Peacock v. Thomas, 516 U.S. 349, 354 (1996)
(quoting Kokkonen v. Guardian Life Ins. Co., 511 U.S.
375, 379-380, 114 S.Ct. 1673, 1676, 128 L.Ed.2d 391
(1994)) and Thomas, Head, & Greisen Employees Trust
v. Buster, 95 F.3d 1449 (9th Cir. 1996). Peacock and
Thomas are both ERISA cases, not private inter vivos
or testamentary trusts. Hoffman v. Beer Drivers &
Salesmen’s Local Union No. 888, 536 F.2d 1268, 1276
(9th Cir. 1976), is a NLRB suit about a boycott, it
says “ The general rule is that an appeal to the circuit
court deprives a district court of jurisdiction as to any
matters involved in the appeal.” J. Moore, Federal
Practice P 203.11, at 734 (2d ed. 1975).”
An ERISA employee benefit trust is created under
federal law and enforced by the Department of Labor,
which means ERISA trusts fall under Article VI clause
2 of the Constitution. The Tenth Amendment limits
the States to those laws that are not federal laws.
There is no federal probate law therefore, probate

13

laws fall under the Tenth Amendment. California
probate code 82(b) App.l63a and the probate laws of
the other forty-nine states, say ERISA trusts are not
considered to be private trusts like inter vivos or
testamentary trusts. These State statutes were
intentionally created to avoid any conflict between
the States’ probate laws under the Tenth Amendment
and federal ERISA laws under the Constitution’s Article
VI clause 2 supremacy clause. By using ERISA law to
impose jurisdiction over State probate law, the district
court and Ninth Circuit wrongly imposed federal law
over the State of California, violating the Tenth
Amendment that separates federal and state powers
and laws. Kast also cited FRCP 12(b)(1) for the
magistrate not having subject matter jurisdiction.
For these reasons the petition should be granted.
B. The District Court Erred When It Asserted
Jurisdiction Over the Beneficiary.
Following the magistrate’s order taking Baker’s
property, Erickson filed a motion to seize the income
from the trust properties (Dkt307) to try to force the
properties into foreclosure, so he could seize the
$450,000 judgment prior to a decision on the copyright
appeal. The article three district court judge, who
inherited the case from the retired magistrate deter­
mined, after reading all of the case records, that
Baker lacked the capacity to be sued under FRCP 17(b)
(Docket 341) (App.5a). Therefore, the district court
lacked jurisdiction over Baker and the irrevocable Black
Oak Trust. In its order the district court confirmed
Kast was not the trustee of the irrevocable trust at
the time Erickson filed the motion to amend there­
fore, Erickson had no claim against Baker, the

14

irrevocable trust’s successor trustee and beneficiary.
The district court judge denied Erickson’s motion to
seize the trust’s income and dismissed Baker based
on her lack of capacity. The district court judge’s dis­
positive decision should have ended Erickson’s claim
to Baker’s property held in the irrevocable trust, but
the appeal went forward even after the Ninth Circuit
received notice of the district court judge’s dispositive
decision six months before it issued its memorandum.
The Ninth Circuit affirmed the magistrate’s order on
May 1, 2019. The Ninth Circuit never acknowledged
the district court judge’s superseding order (Docket
341, App.5a) excluding Baker as a defendant and
validating the irrevocable trust, before or after its
decision nor in Kast’s En Banc petition.
There is no diversity of citizenship to provide the
Ninth Circuit or the district court with jurisdiction
over Baker and the irrevocable trust. Kast the settlor,
and Baker the successor trustee and beneficiary are
both California residents as is Erickson.
C. The District Court Abused Its Discretion When
It Used Comity to Claim Jurisdiction.
Did the district court using comity to retain
jurisdiction deprive the parties of their Fifth
Amendment right to due process in a State court of
competent jurisdiction? Kast believes so. Kast asked
the district court to transfer the case to the California
Superior Court for San Mateo County. Kast’s request
to change the venue was denied based on the district
court’s claim that it should keep the case due to
comity. The district court didn’t cite one case in
federal court that gave it jurisdiction over a private
inter vivos trust that didn’t have constitutional, tax,

15

bankruptcy or other federal issues, which would justify
a hearing in district court. The court’s claim of
Comity was not supported by case law.
Black’s defines Judicial Comity as “The principle
in accordance with which the courts of one state or
jurisdiction will give effect to the laws and judicial
decisions of another, not as a matter of obligation,
but out of deference and respect. Franzen v. Zimmer;
35 N.Y.S. 612, 90 Hun 103; Stowp v. Bank, C.C.Me.,
92 F. 96; Strawn Mercantile Co. v. First Nat. Bank,
Tex. Civ. App., 279 S.W. 473, 474; Bobala v. Bobala,
68 Ohio App. 63, 33 N.E.2d 845, 849.”
D. The Ninth Circuit’s Decision Conflicts With
the Internal Revenue Service’s Tax Treatment
of Trusts.
The Ninth Circuit’s decision is contrary to IRS
codes 671-678 (App.169a) government on how grantors
and trusts are taxed. The IRS says the owner of trust
property is the grantor, the Ninth Circuit says it is
the trustee. It is also contrary to the IRS’ position
that supports private inter vivos and testamentary
trusts fall under the States jurisdiction not the
federal government.
E. The District Court Erred When it Claimed
Jurisdiction During the Appeal.
The United States Supreme Court has held that
“a federal district court and a federal court of appeals
should not attempt to assert jurisdiction over a case
simultaneously.” Griggs v. Provident Consumer Dis­
count Co., 459 U.S. 56, 58 (1982). However, “[albsent a
stay or supersedeas, the trial court. . . retains juris-

16

diction to implement the judgment or order, but may
not alter or expand upon the judgment.” In re
Padilla, 222 F.3d 1184, 1190 (9th Cir. 2000). This is
because district courts “may not finally adjudicate
substantial rights directly involved in the appeal.”
McClatchy Newspapers v. Central Valley Typo­
graphical Union No. 46, Inti Typographical Union,
686 F.2d731, 734-35 (9th Cir. 1982). See App.9a-12a
for the discussion.
II.

This Issue Is of legal and National
Significance — The Ninth Circuit’s Decision
Deprived the Beneficiary of her Fifth
Amendment Property Due Process.

Baker was not under any court’s jurisdiction and
lacked capacity to be sued when the magistrate took
her property. When the district court denied Kast
and Baker’s request to transfer the case to California
Superior Court for San Mateo County, the district
court’s denial was a violation of Baker’s Fifth Amend­
ment right to due process of law.
The magistrate’s sole motivation in granting
Erickson’s motion to amend was to expose Baker’s
property to claims by Erickson to settle Kast’s judg­
ment. The district court judge clearly explained why
taking Baker’s property was wrong. Because the dis­
trict court didn’t have jurisdiction over Baker the
only place she could have obtained due process is in
California Superior Court, but the district court
denied her that opportunity when it refused to transfer
the case.
The Ninth Circuit also violated Baker’s Fifth
Amendment right to due process of law when it

17

affirmed the magistrate decision without hearing from
Baker. For over 100 years Courts have referenced
Coe v. Armour Fertilizer Works, 237 U.S. 413 (1915)
which said “Any course of procedure having for its
object the taking of property to satisfy an alleged
legal obligation without according any hearing to a
respectful protest invoking the supreme law of the
land cannot be regarded as due process of law.”
Specialty probate courts exist because both the
plaintiff and defendant have an expectation that the
judge(s) hearing their case will have sufficient
knowledge of the State’s probate laws to make an
informed decision. This expectation raises the question
as to whether a U.S. District Court has the requisite
knowledge to hear complex probate legal issues that
are normally adjudicated in specialty State probate
courts, so that a plaintiff and defendant can have
their right to due process under the Fifth Amendment.
The hearing record, proves the magistrate didn’t
have a sufficient knowledge of California probate
trust law to make an informed decision, which raises
the question as to whether the parties received due
process under the Fifth Amendment. For these reasons
this petition should be granted.

18

III. This Issue Is of Legal and National
Significance — The Tenth Amendment Confers
to the State’s the Ability to Establish
Probate Laws to Determine What Makes a

Trust Valid.
A. The Ninth Circuit’s De Novo Review Fails.
Kast asked the Ninth Circuit to review his appeal
De Novo. The Ninth Circuit affirmed that the trust
was revocable based on the district court saying it
was revocable. Had the Ninth Circuit reviewed the
trust instrument, California’s probate code referenced
in East’s opening and reply briefs, the evidence and
case discussion in Docket 213 1-3 and the district
court order wherein the district court judge noted
that Erickson admitted in his briefs that Raker is the
trustee (not Kast) App.5a then applied California
Probate law, it could only have concluded the Black
Oak Trust is irrevocable.
For the Ninth Circuit to justify this pre-deter­
mination, it cited CPC 18200 App.l55a and Zanelli v
McGrath. The panel’s reliance on CPC 18200 and
Zanelli is wrong for the following reasons. CPC 21102(a)
says” The intention of the transferor (Kast) as expressed
in the instrument controls the legal effect of the dis­
positions made in the instrument” App.l56a. CPC
15400 says “Unless a trust is expressly made irrevocable
by the trust instrument, the trust is revocable by the
settlor”. The Black Oak Trust instrument states twice
on page 1 that the intent of the settlor is that the
trust is irrevocable App.l65a-167a. CPC 18200 is
inapplicable because the statute states “If the settlor
retains the power to revoke the trust in whole or in
part, the trust property is subject to the claims of

19

creditors of the settlor to the extent of the power of
revocation during the lifetime of the settlor.” App.l52a.
In section 1.03 on page 2 of the trust instrument App.
167a it states “This Trust is irrevocable, and I (Kast)
cannot alter, amend, revoke, or terminate it in any
way”. The courts were provided with the full trust
document and supporting case law and statutes as
exhibits in Docket 213-1-3.
Zanelli states that creditors can reach property
held in a revocable trust. The irrevocable Black Oak
Trust instrument CPC 15400 and CPC 21102(a) neuter
the court’s reference to CPC18200 and Zanelli in this
case. The Ninth Circuit and the district court were
both wrong, California’s probate code doesn’t support
their decision that the Black Oak Trust is revocable.
For these reason the petition should be granted.
B. This Issue Is of legal and National Significance
— The Tenth Amendment Enables California’s
Probate Code to Determine a Trust’s Validity.
The Tenth Amendment confers on the States the
right to create and enforce their own probate laws. In
all fifty states a private inter vivos trust is valid the
instant the trust is executed and funded. A private
testamentary trust is valid the instant a settlor dies.
California Probate Code (CPC) definitions are included
in the Appendices. CPC 82 (b)(l3) defines a “private”
trust as not an employee benefit (ERISA) trust. CPC
21102(a) says the trust instrument controls the legal
effect of what happens after the trust is created. For
a California trust to be valid here needs to be a
conveyance of property (CPC 15202, 15206); intent
(CPC 15201); promise (CPC 15200(e); purpose (CPC
15203); a beneficiary (CPC 15205) and capacity (CPC

20

810). CPC 15208 says no consideration is required to
create a trust. CPC 15400 “Unless a trust is expressly
made irrevocable by the trust instrument, the trust
is revocable by the settlor”. The Black Oak Trust
instrument’s first page and section 1.03 states it is
irrevocable. App.l65a-167a. Therefore, the trust is
irrevocable under CPC 15400.
When Kast executed and funded the irrevocable
trust in December 2007 he clearly stated on the first
page of the trust instrument, his intent to make the
trust irrevocable. Under California probate law, and
the probate laws of forty-nine other states, the trust
instrument controls the trust therefore, the Black
Oak Trust is irrevocable. Further, under California
law and the laws of forty-nine other states the trust,
whether it was made irrevocable by amendment to a
revocable trust or as a new separate trust, it is irrev­
ocable the instant it is executed and funded. As it
was the last document executed, it supersedes the
revocable trust. The California irrevocable inter vivos
Black Oak Trust dated 3-11-95 has all of the legal
requisites for a valid irrevocable trust. For these
reasons the petition should be granted.
C. This Issue Is of Legal and National Significance
— A Licensee’s Behavior Does Not Create Pass
Through Liability to a Trust, the Trustee or
the Trust’s Beneficiary.
In its order the Ninth Circuit conflated trust
terminology by saying the trustee, trust and the
beneficiary are the same, they are not. Most basically,
a trust is a right in property, which is held in a
fiduciary relationship by one party for the benefit of
another. The trustee is the one who holds title to the

21

trust property, and the beneficiary is the person who
receives the benefits of the trust property. CPC 16002
clearly states “The trustee has a duty to administer
the trust solely in the interest of the beneficiaries”
App.l52a. The Ninth Circuit improperly cited Padilla,
Gaynor and In re Allustiarte to claim behavior imputes
liability to the trustee which enables the court to
take the property’s benefit from Baker the beneficiary.
see Docket 341. The ramifications of this decision are
far reaching and impact all fifty states probate laws.
When the irrevocable trust became valid, the
settlor Kast, gave up all claims to and ownership of
the property he transferred into the trust for the
benefit of Baker the beneficiary. Nothing the settlor
(Kast) does or savs enables the Kast the settlor/trustor
to take back the property. The landmark California
irrevocable trust case is. Laycock v. Hammer, 44 Cal.
Rptr. 3d 921, 925-26 (Ct. App. 2006) which states “
There are no cases which permit the settlor of a trust
to make an irrevocable trust revocable by wav of
conduct after the trust has been established”. Also
see Walton v. Bank of California, 218 Cal.App.2d 527
(1963) “trustor may not rescind irrevocable trust”.
Both of these cases amongst others were cited in Docket
213-1-3. Per California probate law and Laycock,
nothing Kast did or said after he executed and funded
the irrevocable inter vivos Black Oak Trust dated 311-95 would cause the irrevocable trust to become
revocable. Therefore, the Ninth Circuit passing liability
from Kast as an individual to Kast as the trustee of
an irrevocable trust does not permit the court to take
the beneficiary, Baker’s, property.

22

For the courts to say Kast’s behavior as a licensee,
who was hired by the trustee, makes him the trustee
is contrary to CPC 16247, California’s vicarious liability
laws and the probate law in forty-nine other states.
The district court abused its discretion when it passed
through Kast’s personal liability to the trust and
Baker the beneficiary just because Kast was hired to
provide services permitted by CPC 16247, which says
“The trustee has the power to hire persons, including
accountants, attorneys, auditors, investment advisers,
appraisers (including probate referees appointed
pursuant to Section 400), or other agents, even if
they are associated or affiliated with the trustee, to
advise or assist the trustee in the performance of
administrative duties.” The Ninth Circuit abused its
discretion when it took Baker’s property out of a
valid California irrevocable trust by voiding a valid
transfer ten years earlier, based on Kast’s behavior,
so that Erickson can seize her properties. For these
reasons the petition should be granted.
D. The Ninth Circuit and District Court’s Erred
— Their Decision Creates Confusion and
Conflict.
Erickson’s attorney confused the magistrate to
create uncertainty and doubt about the trust and its
amendments. However the State of California, County
of San Mateo, California, First American Title
Insurance Company, banks and lenders who deal with
these trust instruments on a daily basis are not
confused, they have no doubt the Black Oak Trust is
irrevocable. First American Title Insurance Company
put nearly a million dollars at risk to insure the title
on two trust owned properties because t.bev know that

23

the trust is irrevocable under California law, that the
properties were properly conveyed into the irrevocable
trust and that Baker is the valid successor trustee
and beneficiary. If First American had any doubt about
the validity of the irrevocable trust under California
law they wouldn’t have insured the titles. Four lenders
lent the irrevocable trust over one million dollars,
they would not have done that if the irrevocable trust
was not valid. It is extremely unlikely that Erickson’s
attorney would have been able to confuse a California
probate court about the validity of the irrevocable
trust.
The Ninth Circuit decision created more confusion.
Taking Baker’s property out of the irrevocable trust
and giving it back to East in the revocable trust
created two trusts. Where the revocable trust had
previously disappeared when it was amended and
restated in 2007, the district court’s order reinstated
it in 2017. Neither the district nor appellate court
said the irrevocable trust was not valid. As a result,
the court’s created a revocable trust and an irrevocable
trust that exist side by side. The revocable trust has
the properties, the irrevocable trust is the borrower
of record and the receiver of the property income and
pays the mortgages, etc. The problem the district
court and the Ninth Circuit created is the lenders want
their loans secured by property that is in the irrevocable
trust. The Ninth Circuit’s decision removed the
property from the irrevocable trust, so now the loans
don’t have any collateral. On the other side, the
revocable trust has properties, but it doesn’t have
any income to pay the lenders because the income is
in the irrevocable trust. East advised the courts in
advance of the significant negative ramifications if

24

they were to issue this type of order. What is clear,
Baker was severely harmed by the district court and
the Ninth Circuit because she has lost her retirement
savings through no fault of her own. For these reasons
the petition should be granted.
The Ninth Circuit’s decision is unpublished, but
was being referenced in legal writings within one
week. Sixth Circuit Chief Judge Boyce Martin recently
listed six criticisms of the use of unpublished
dispositions: “loss of precedent, sloppy decisions, lack
of uniformity, a lesser likelihood of review by the
Supreme Court, unfairness to litigants, less judicial
accountability, and less predictability. Consolidating
matters somewhat, we can say that the principal
criticisms are that unpublished dispositions create
four types of harms: (l) they create inconsistency in
case outcomes, (2) they create the potential for “stealth
jurisprudence, ’ (3) they may contain sloppy analysis,
and (4) people are unsure about their validity.” The
one thing Chief Justice Martin didn’t mention is the
harm the Court’s unpublished decisions do to innocent
people like Baker who are not a party to any litigation.
E. This Issue Is of legal and National Significance
— The Tenth Amendment Enables the
Trust s Spendthrift and Special Powers of
Appointment Clauses to Prevent Taking
Baker’s Property.
The courts have validated Spendthrift provisions
in trusts for over 100 years. Even if the district court
had found Baker as the beneficiary was liable, which
it could not and did not, the spendthrift clause in the
irrevocable trust prevented the court from taking

25

Baker the beneficiary’s property prior to distribution
CPC 15301, 15307.
Thirty-eight states have adopted the Uniform Trust
Code (UTC). The UTC’s spendthrift codes mirror
California’s CPC 15301 and 15307. For example, Utah’s
UTC Section 502 (Spendthrift) provisions for bene­
ficiaries other than the settlor says “(l) A spendthrift
provision for a beneficiary other than the settlor is
valid only if it restrains both voluntary and involuntary
transfer of a beneficiary’s interest, even if the bene­
ficiary is the trustee or co-trustee of the trust. (2) A
term of a trust providing that the interest of a bene­
ficiary other than the settlor is held subject to a
“spendthrift trust,” or words of similar import, is
sufficient to restrain both voluntary and involuntary
transfer of the beneficiary’s interest.(3) A beneficiary
may not transfer an interest in a trust in violation of
a valid spendthrift provision and, except as otherwise
provided in this part, a creditor or assignee of the
beneficiary may not reach the interest or a distribution
by the trustee before its receipt by the beneficiary.”
Because the irrevocable Black Oak Trust’s instrument
says the trust corpus is for the beneficiary’s health,
education, maintenance and support the court cannot
take Baker’s assets to pay Erickson due to the
spendthrift clause. See East’s reply brief App.98a for
why the trust’s spendthrift and special powers of
appointment clauses prevent the court and Erickson
from taking her property. See Ammco Ornamental Iron,
Inc. v. Wing{1994) “Because the judgment debtor was
not the sole beneficiary of the trust, the doctrine of
merger did not apply and the trust did not fail. We
therefore hold the judgment must be reversed because
the judgment creditor may not execute on the judgment

26

debtor’s interest in the trust free of the trust’s restric­
tions on alienation.” For these reasons the petition
should be granted.
IV. This Issue Is of legal and National
Significance — The Tenth Amendment Confers
to the States the Ability to Create And
Enforce Their Own Licensing Laws.
There are no federal licensing laws for attorneys,
accountants, fiduciaries, real estate brokers, insurance
brokers, doctors, landscapers, caregivers and other
licensees who trustees of inter vivos or testamentary
trusts may hire to provide them with services to benefit
beneficiary(ies). Kast is a California licensed profes­
sional fiduciary #558, Real Estate Broker #01426063
and Insurance broker #0G91440. The Tenth Amend­
ment gives the States the exclusive right to legislate
and enforce their own laws regarding the qualifications
required for persons to be licensed and the behavior
of those licensed persons. The State allows licensees
to perform the tasks that a trustee of a inter vivos or
testamentary trust might perform without the licensees
being legally named the trustee. CPC 16247 says
“The trustee has the power to hire persons, including
accountants, attorneys, auditors, investment advisers,
appraisers (including probate referees appointed
pursuant to Section 400), or other agents, even if
they are associated or affiliated with the trustee, to
advise or assist the trustee in the performance of
administrative duties.” Baker was allowed by CPC
16247 to hire Kast as an advisor, bookkeeper and
property manager.
In its decision the Ninth Circuit ignored CPC
16247 and referenced Kast’s behavior after he resigned

27

as trustee, to conclude that Kast was behaving like
the trustee therefore, Kast was the trustee (not Baker).
There is nothing in California law that says the
behavior of a licensed person makes them the trustee.
If that was the case, attorneys, accountants, fiduciaries,
doctors, caregivers and even hair stylists could all be
considered trustees because a trustee hired them to
provide services the trustee could perform for
themselves or the beneficiary. Further, the licensee’s
personal debts could be passed through to the trustee
and beneficiary, which would prevent trustees from
hiring anyone. The district court abused its discretion
by deciding that Kast’s personal liability is able to be
passed through to Baker as trustee or beneficiary.
Secondly, Kast’s liability to Erickson had nothing
to do with the trust or Baker, it related to Only
Websites’ copyright infringement. Kast’s debt to
Erickson didn’t occur while he was acting as the trustee,
it was when he contracted for a website to be built for
Atherton Trust Co. his completely separate investment
advisory company. Atherton had nothing to do with
the trust, his trustee responsibilities or Baker the
beneficiary. Erickson’s original suit didn’t name Kast
as the trustee of the irrevocable Black Oak Trust, the
trust or Baker as successor trustee or beneficiary as
alleged copyright infringers. Erickson sued Kast as
an individual for copyright infringement and received
a judgment against Kast as an individual only. It was
only after First American Title confirmed to Erickson’s
attorney that the trust was irrevocable, that he filed
the motion to amend to seize Baker’s property. For
that reason the Court can’t pass through Kast’s liability
to the trust or Baker under California law or the law
of forty-nine other states.

28

The Ninth Circuit cited In re Allustiarte, 786 F
2d 910,914 (9th Cir 1986) case to support its reasoning.
But, it involved bankruptcy, intent to make a fraudulent
transfer, and breach of a trustee’s fiduciary duty,
none of which applies here. Kast’s intent is stated on
the first page of the trust and in Baker’s loan
agreement. Kast had no intent to defraud anyone when
he made the transfer in 2007. The transfer was made
six years before Erickson sued Kast, Kast had no
significant creditors other than Baker, so this case is
inapplicable. Solomon v. N Am. Life and Cas. Ins.
Co., 151 F3d 1132,1138 (9th Cir. 1998) The court said
“party that did not create, operate or control the
trust” or “perform any duties as trustee was not a de
facto trustee” the court’s excerpt was taken out of
context of this case. The court actually said “there is
no evidence that Allianz and Solomon had a fiduciary
relationship from which a fiduciary duty would flow”.
The court referenced Gaynor v. Bulen, 228 Cal. Rptr.
3d 243,249 n.4 (Cal. Ct. App. 2018) quoting King v
Johnson, 178 Cal.App.4th 1488 (2009) again, out of
context. “An individual “who is not a trustee, but has
‘undertaken to act in the capacity of a trustee’ . . .
maybe held liable as a trustee under certain circum­
stances.” This case was brought by a beneficiary who
alleged breach of trust and waste of trust assets by a
person who was not named the trustee in the trust
instrument. Kast did not breach his trust and didn’t
waste the trust assets, Kast actually grew the trust’s
asset value. The Gaynor case is irrelevant because
the unlicensed person in the case was conspiring
with the trustee to defraud the beneficiary. For the
Gaynor case to be relevant here, it would have had to
mean Kast, as a licensed fiduciary who was hired by

29

Baker the trustee, conspired with Baker the trustee,
to defraud Baker herself as the beneficiary, which
makes no sense. For these reasons the petition should
be granted.
All of these cases dealt with a person who wasn’t
licensed by the State. Kast’s performing the duties of
a licensed fiduciary are governed by Business &
Profession Code 6500-6592. Nothing in the code or
case law enables Kast’s personal debt to Erickson,
which has nothing to do with his being a licensed
fiduciary, to pass through his personal debt to the
trustee, trust or beneficiary.
V.

This Issue Is of Legal and National Signif­
icance — The Tenth Amendment Confers to
the States the Ability Create Their Own
Governmental Laws.
A. Recorded Documents Lack Legal Sufficiency.

The Tenth Amendment gives California the ex­
clusive right to legislate and enforce its own
governmental laws. Two governmental laws are applic­
able here. California regulates what types of docu­
ments can be recorded by a County Recorder and
whether those recorded documents lack legal sufficiency
or correctness as evidence in any legal proceeding.
App.l68a. The Courts stated that the deeds Kast signed
after he executed the irrevocable trust instrument in
2007, some of which may have had correctable typo­
graphic errors, were evidence that the irrevocable trust
was revocable, they are not under California law.
The Ninth Circuit didn’t consider California
Governmental law and the County of San Mateo Cali-

30

fornia’s disclosure on its website that states the
County Recorder “examines the document for “record­
ing requirements” and not for its correctness or legal
sufficiency” App.l70a. As the State of California and
County of San Mateo do not certify or authenticate the
recorded documents for correctness or legal sufficiency,
the documents are not able to be used as evidence in
a legal proceeding. The district and appellate court
did the opposite, they treated the recorded documents
as correct and legally sufficient evidence, contrary to
California law. Further, as per Laycock v Hammer in
III(B) above, no matter what Kast’s conduct was
after executing and funding the irrevocable trust,
nothing he did made the trust revocable. For these
reasons the petition should be granted.
B. The Ninth Circuit and the District Court Erred
— The Legally Required Description of the
Trust on Recorded Loan Documents Is Not a
Fictitious Name That Proves Alter Ego.
The district court tried to justify its order pass­
ing through Kast’s personal liability to Baker the
trustee by saying the irrevocable trust is an alter ego
of Kast as an individual, based on Kast using a
fictitious name to “confound” creditors. Kast referred
the Ninth Circuit to his reply brief which cited
California probate code 16222 to determine whether
an inter vivos or testamentary trust is a business,
which is the requirement for needing a fictitious
business name. If the district court had read the
California law Kast cited, it could never have made
the determination that the legally required description
“Kraig Kast as trustee of the Black Oak Trust dated
3-11-95” on loan documents is a fictitious name which

31

supports alter ego. CPC 16222 says “For the purpose
of this subdivision, the lease of four or fewer residential
units is not considered to be the operation of a business
or other enterprise.” The trust had no more than 4
residential properties before this lawsuit therefore,
under CPC 16222 the Black Oak Trust was not a
business.
This is important because the district court claimed
that the CPC 16009(b) legally required description
“Kraig Kast as trustee of the Black Oak Trust dated
3-11-95” is a fictitious business name, it is not. CPC
16009 says “The trustee has a duty to do the following:
“(b) To see that the trust property is designated as
property of the trust”, App.l53a. This description is
mandated by The State of California, the County of
San Mateo, national lenders and national title com­
panies. California Business & Professions code 17900(a)
says “The filing of a fictitious business name certificate
is designed to make available to the public the
identities of persons doing business under the fictitious
name” and 17900(b) “As used in this chapter, “fictitious
business name” means: (l) In the case of an individual,
a name that does not include the surname of the
individual or a name that suggests the existence of
additional owners, as described in subdivision”. CPC
16009 requires the trustee’s full name be disclosed,
the mandated description includes the trustee’s full
name, thus it is not a fictitious name under 17900(b).
And, the trust is not a business under CPC 16222.
Therefore, the legally required description is not a
fictitious name that Kast used to “confound” creditors
and it is not East’s alter ego of Kast as a trustee. The
trust is not a business so it doesn’t need to file a
fictitious name statement. The only reason the dis-

32

trict court asserted the fictitious name argument was
to enable it to pass through Kast’s personal liability to
Baker, the trust’s beneficiary. The Ninth Circuit’s
whole justification is contrary to both California
Business & Professions Code 17900 and CPC 16009.
For these reasons the petition should be granted.
VI. This Issue Is of Legal and National
Significance — The Tenth Amendment and
California Probate Law Validate the
Property Was Correctly Transferred into
the Trust.
The Tenth Amendment prohibits a district court
from invalidating the settlor’s transfer of property
into a trust, when that transfer is valid under
California’s probate law. In this case, the property
was transferred into the irrevocable trust six years
before Erickson sued Kast. At the time Kast assigned
his properties to Baker in the irrevocable trust to
satisfy his debt to her, he had no significant creditors
other than Baker, was not insolvent and had no
anticipation that six years in the future he would be
sued for copyright infringement. At the time he assigned
his properties to Baker, Kast had never been sued
before and had no negative notations on any of his
professional licenses then or now. For this reason the
petition should be granted.
VII. The District and Appellate Courts Erred —
The Ninth Circuit and District Court’s
Decision In re Levander Conflicts with
FRCP 60(b) Amended 1946 and FRCP 6(b).
The District and appellate court both abused their
discretion by not applying FRCP 60(b) amended 1946,

33

FRCP 59(e) and FRCP 6(b) properly as a statute of
limitations. Both courts cited Ninth Circuit’s decision
In re Levander 180 F. 3d 114, 1121 n. 10 (9th Cir.
1999) as providing Erickson with a nebulous
“reasonable” amount of time to file his motion to
amend the judgment based on his claim of “newly
discovered evidence”. The federal rules should be
superior to the Ninth Circuit’s case judgment. The
Ninth Circuit’s In re Levander decision conflicts with
the federal rules.
Erickson filed his motion to amend 463 days after
the judgment was entered on August 18, 2015. Erickson
knew his motion should be denied, which is why he
filed another lawsuit in CAND case no 17-cv-02427 in
compliance with FRCP 60(b) amended 1946. Kast cited
in his briefs “Rule 60(b) as amended permits an
application for relief to be made by motion, on the
ground of newly discovered evidence, within one year
after judgment”.
Kast also cited FRCP 59(e) which says “A motion
to alter or amend a judgment must be filed no later
than 28 days after the entry of the judgment.” Both
the district court and the Ninth Circuit denied that
FRCP 59(e) applied to Erickson’s motion to amend the
judgment based on In re Levander.
In addition, Kast cited FRCP 6(b) which says “A
court must not extend the time to act under Rules
50(b) and (d), 52(b), 59(b), (d), and (e), and 60(b)“, but
the district court again cited In re Levander.
Kast asks the Supreme Court to review the
Ninth Circuit’s In Levander decision and resolve In
re Levandels conflict with FRCP 60(b) amended 1946,
FRCP 59(e) and FRCP 6(b) to determine whether the

34

Ninth Circuit and district court erred when they should
have applied FRCP 59(e), FRCP 60(b) amended 1946,
and FRCP 6(b)’s statute of limitations to this case.
Based on the Federal Rules of Civil Procedure, the
Courts should have dismissed Erickson’s Motion to
Amend the Judgment. For these reasons the Court
should grant this petition.

CONCLUSION
The Ninth Circuit’s decision effects the U.S.
Constitution, State probate and governmental laws
and millions of private trusts across all fifty states. It
is East’s sincere request that the Supreme Court accept
this Writ of Certiorari because it clearly raises
Constitutional questions that deserve the Supreme
Court’s consideration.

Respectfully submitted,
Kraig R. East
Petitioner Pro Se
P.O. Box 4612
Foster City, CA 94404
(415) 806-9292
KRAIGU@HOTMAIL.COM

September 5,2019

